Lost or Stolen Cards, Checks or Account Numbers: If you lose

Cardmember Agreement

or someone steals your card or any other means to access your Account, or
if you think someone has used your Account without your permission, you
must tell us immediately. Call the Bankcard Service telephone number on your
card or billing statement. Do not use your Account after you notify us. We may
end your credit privileges and close your Account if we consider it appropriate.
You agree to provide us information to help us find out what happened.

Personal and Business Credit Card Agreement – Revised November 2020

AGREEMENT ACCEPTANCE AND AMENDMENTS
Acceptance: This Agreement governs your credit card Account. You promise
to pay for all transactions, interest charges and fees assessed on your Account,
and any past due amounts. The words "we," "us" and "our" mean First Bank,
which is the issuer of your credit card and lender for your Account. The words
"you," "your," and "yours" mean everyone responsible for this Account, including
the person who applied for the Account and the person to whom we provide the
billing statements. The word "card" means each card or other access device,
such as Account numbers, that we give you to use your Account.

TYPES OF TRANSACTIONS AND AUTHORIZATIONS
Purchases: You may use your card to pay for goods or services.
Balance Transfers: In our discretion, we may allow you to transfer
balances from other accounts or loans from other credit card companies,
other lenders or other balance transfers we may allow, using balance transfer
checks we provide. Those uses are "balance transfers". You are not
authorized to transfer balances to this Account from other accounts or loans
with us or any of our related companies. If you request a balance transfer but do
not have enough available credit, we may transfer only a part of the requested
amount.

By accepting and using the card we issue to you, you agree to accept the terms of
this Agreement.

Amendments: We have the right to change the terms of this
Agreement for any reason, and in any respect, by adding, deleting
or modifying any provision, including APRs, fees, the Minimum
Payment and other terms. We can add a new provision
without regard to whether the provision deals with a matter
already addressed by this Agreement.

Cash Advances: You may use your card to get cash from automatic teller

In certain circumstances, we are required by law to notify you
of changes to the terms of this Agreement, and in other
circumstances we may not be required to do so. When
required by law to advise you that you have a legal right to
reject any changes we make, we will provide an explanation
about how to do that.

machines or from banks that accept the card, or by using cash advance
checks we may provide. Also, we will treat as cash advances any balance transfer
checks made payable to cash, you or other payees we disclose to you. All the
following uses of your Account will be treated as “cash advances": purchasing
travelers checks, foreign currency, money orders, wire transfers or similar
cash-like transactions; purchasing lottery tickets, casino gaming chips, race
track wagers or similar betting transactions; and making a payment using a third
party service.

In some circumstances, APRs or other aspects of your Account
may change even though the terms of the Account do not
change, for example when the Prime Rate changes or the
Penalty APR becomes applicable. See the Penalty APR section
about our right to increase APRs on outstanding balances
and/or future transactions for events of default including late
payment.

Types of Checks/Refusal to Pay Checks: Each balance transfer check
or cash advance check you write is your request for funds. We may also call
them a check or an access check. The check must be signed by the person
whose name is printed on it. When we receive an access check for payment,
we may review your Account to decide whether to pay that check. We have the
right not to pay a check for any reason, including but not limited to the following
examples:

USING YOUR ACCOUNT

 We or one of our related companies is the payee on the check.
 The check is post-dated. If a post-dated check is paid, resulting in another
check being returned or not paid, we are not responsible.
 You have used the check after the date specified on it.
 You are in default (including exceeding your credit line) or would be if we paid
the check.
Promotional Offers: From time to time, we may offer special rates (such as
lower interest rates or fee waivers) through Balance Transfer or other
promotional programs. If you take advantage of one of these promotional
programs, the resulting balance will be subject to the terms made in that
specific promotional offer. Promotional offers may be treated as either Balance
Transfer or Cash Advance transactions. Each offer will provide details about
the terms of the promotion, including the ANNUAL PERCENTAGE RATE, any
transaction fees, the effective dates, and any grace period. Convenience
Checks, Balance Transfer checks, and other promotional programs may not
be used to pay all or any portion of any outstanding balance or other obligation
you owe us or our affiliates. We reserve the right to decline any Balance
Transfer transactions on your Account. If applicable, we may end your
promotional APR and apply the non-promotional APR to new Purchases and
Balance Transfers if a late payment is made during the promotion period.

Consumer Accounts, which are those accounts held in the name of a natural
person, are to be used only for personal, family or household purposes. If
your account is a Business Account, which is an account not held in the
name of a natural person, you represent that your Account will be used
exclusively for business, commercial, or organizational purposes and not for
personal, family or household purposes.
Furthermore, you promise that you will not allow your Account to be used for
Internet gambling, and you will not use it for any unlawful purposes or
transactions, including check kiting.

Authorized Users: If you let anyone use your Account, that person is an
authorized user. You may request another card for each authorized user. If you
do, this Account may appear on the authorized user's credit report. You are
responsible for all use of your Account including charges by authorized users.
You must tell us if you want to stop an authorized user from using your Account.
If you do, we may close the Account and issue a new card(s) with a different
Account number. It is your responsibility to get any cards, checks or any other
means of access to your Account from the authorized user and destroy them or
return them to us upon request.

Billing Cycles/Statements: Your Account will have time periods called

Refusal to Authorize Transactions: We may decline any transaction on

"billing cycles" or "billing periods." Each billing cycle is about one month in
length. We will provide a billing statement each month one is required by
applicable law.

your Account for any of the following reasons:
 operational matters,
 your Account is in default (including exceeding your credit line),
 suspected fraudulent or unlawful activity, or
 any other reason we choose.
We are not responsible for any losses if a transaction on your Account is declined
for any reason, either by us or a third party.

Credit Line: We also call this a credit limit. We will assign a credit line to your
Account. Your statement will show the amount of your credit line as of the date
of the statement. If your Account goes overlimit, you must repay the overlimit
amount when it is billed on your monthly billing statement, or sooner if we ask
you to. We may, but are not obliged to, allow your Account to go over its credit
line. We may change or cancel your credit line without telling you ahead of time.
If we do, it will not excuse you from your obligations to pay us. We may restrict
the extent to which your credit line can be used for different types of transactions
(for example, purchases, balance transfers and/or cash advances) such as by
limiting the dollar amount or number of or time period available for any such
transactions, and we may completely prohibit use of your credit line for particular
types of transactions.

1

PAYMENTS

PERIODIC INTEREST CHARGES

Minimum Payment: You must make your Minimum Payment in a way that we
receive it by the time and date it is due. You may make payments greater than
your required Minimum Payment. This will reduce the interest charges that
are added to your Account.
Your Minimum Payment will ordinarily be the largest of:
• $10 (or total amount you owe if less than $10); or
• 3.00% of the New Balance

Periodic Interest Charge Calculation—Average Daily Balance
Method (including current transactions): We figure periodic interest
charges for each billing cycle.
 To get the “average daily balance”, you will take the beginning balance of
your Account each day, add any new purchases, cash advances, or balance
transfers, and unpaid charges (including unpaid finance charges) and other
debits, and subtract any payments or credits. This gives you the daily
balance. Then you will add up all the daily balances for the billing cycle and
divide by the number of days in the billing cycle. This gives you the “average
daily balance.” A purchase, cash advance or balance transfer appearing on
your monthly periodic statement is considered part of the outstanding
balance from the date of the transaction or the first day of the billing cycle,
whichever is later.
 Your finance charge is computed by multiplying the “average daily
balance” by the monthly periodic rate which has been disclosed to you at
account opening and may vary as provided in such disclosure.

As part of the Minimum Payment, we will also add any amount past due and we
reserve the right to add any amounts in excess of your credit line. Even if the
Minimum Payment does not include amounts in excess of your credit line, you
must pay such amounts when billed on your monthly statement or sooner if we
ask you to.
Payment Instructions: You agree to pay us amounts you owe in U.S. dollars.
You must use a check, money order or electronic debit drawn on a US bank
or a foreign bank branch in the U.S. We will not accept cash payments through
the mail. When we receive or apply a payment, we might not restore your
available credit by that amount for up to 15 days.
For mailed payments, your billing statement and the envelope it comes in give
you instructions about how, when and where to make your payments. You must
follow these instructions. Your payment will not be credited to your Account
before we receive it at the address we specify for receipt of payments and in
accordance with the payment instructions.
If you make a payment marked as paid in full or indicate that it is to pay all
amounts you owe us, you must send that payment to the address on the front of
your statement. We may accept a conditional payment and not agree that it pays
all amounts you owe on your Account. Also, we may return a conditional
payment to you and you will still owe us the amount of the payment or any other
amounts owed on your Account.
You authorize us to collect any payment check either electronically or by
draft. We can collect your payment checks electronically by sending the check
number, check amount, account and routing numbers to your bank. Or we can
collect these checks by sending a draft drawn on your bank account. Funds
may be taken from your bank account on the same day we receive your
payment. We will not keep your original check, just a copy of it.
You may use our optional services to make payments electronically through our
website, our Customer Service, or using our Autopay feature. We will provide the
terms for these payment services before you use them.

Paying Interest: We begin assessing periodic interest charges on a transaction,
fee, or interest charge from the date it is added to your daily balance as
described in this Agreement until your Account is paid in full. Your due date
will be a minimum of 26 days following the close of each billing cycle. You can
avoid periodic interest charges on new purchases when they are first billed to
a statement, as described below, but not on cash advances, balance transfers or
overdraft advances.
If you receive a current monthly statement that includes new purchases, and
then make a payment that we receive by the date and time the Minimum
Payment is due for that statement, we will not charge periodic interest on any
portion of the new purchases on that statement that we allocate such payment
to, so long as your current statement also shows that we received payment of
the ending balance for your previous month's statement by the date and time its
Minimum Payment was due or that the ending balance for your previous month's
statement was zero. If you have a balance other than a purchase balance and
the other balance carries a higher periodic interest rate, you may not be able to
avoid periodic interest charges on new purchases if you do not pay your
balance in full each month, because we generally allocate payments first to
the balance with the highest periodic interest rate.
See the Amendments section about our rights to increase APRs and make other
changes to your Account for any reason.

Payment Crediting/Allocation: We will apply payments equal to or less than the
required Minimum Payment amount and any credits to balances on your
Account in a way that is most favorable to or convenient to us. Generally, and
except as required by law, we will credit payments over the required Minimum
Payment to balances with the highest APR first. We will then credit payments
to lower rate balances in descending order of APRs. The manner in which we
apply any payment to your Account balances may affect the amount of any
payment applied to introductory or promotional financing balances.
Credit Balances: You may request a refund of any credit balance at any time.
Otherwise, we will apply it to any new charges on your Account or provide the
refund to you as required by law.
Automatic Charges: You may allow others to automatically charge repeat
transactions to your Account. You will be responsible for making new
arrangements to make those payments if they are stopped for any reason such
as:
 your Account is closed or suspended or.
 your Account number changes.

2

will inform you of the fee in effect prior to when the applicable service is
provided.
Transaction Fees for Balance Transfers and Cash Advances: We
may charge you transaction fees for balance transfers and cash advances.
These transaction fees are finance charges and are added to the balance for the
applicable category of balance transfers or cash advances as of the date of that
transaction.

Variable Rates: When you have an APR that varies with changes to the
Prime Rate, we calculate the APR by adding a margin to the Prime Rate
published in The Wall Street Journal on the last day of the previous calendar
month before the Closing Date shown on your billing statement. The "Prime
Rate is the highest (U.S.) Prime Rate published in the Money Rates section of
The Wall Street Journal. The APR will change if the Prime Rate changes. The
new rate will be applied as of the first day of your billing cycle during which the
Prime Rate has changed. If the APR increases, you will pay a higher interest
charge and may pay a higher Minimum Payment. The Prime Rate is simply a
pricing index and is not the lowest interest rate available. If The Wall Street
Journal stops publishing the Prime Rate, we will select a similar reference rate.
From time to time, your APR may be subject to a minimum interest rate,
commonly referred to as a “floor”. We will publish any floor which may be
in effect.

DEFAULT/COLLECTION
Your Account may be in a default if any of the following applies:
 we do not receive at least the Minimum Payment by the date and time due as
shown on your billing statement.
 you exceed your credit line.
 you fail to comply with the terms of this Agreement or any other agreement
with us or one of our related companies.
 we obtain information that causes us to believe that you may be unwilling or
unable to pay your debts to us or to others on time.
 you file for bankruptcy.
 you become incapacitated or die.

OTHER FEES AND CHARGES
We may charge the following fees. Transaction fees are added to the related
balance for the type of transaction. All other fees are added to the balance for
purchases.
Annual Fee: If your Account has an annual fee or similar charge, it will be
billed each year whether or not you use your Account, and you agree to pay it
when billed. The annual fee is non-refundable unless you notify us that you wish
to close your Account within 30 days of our providing the statement on which
the annual fee is billed and at the same time, you pay your outstanding balance
in full. Your payment of the annual fee does not affect our rights to close your
Account and to limit your right to make transactions on your Account. If your
Account is closed by you or us, we will continue to charge the annual fee until
you pay your outstanding balance in full and terminate your Account relationship.

If your Account is in default, we may close your Account without notice and
require you to pay your unpaid balance immediately. To the extent permitted by
law, if you are in default because you have failed to pay us, you will pay our
collection costs, attorneys' fees, court costs, and all other expenses of enforcing
our rights under this Agreement.
CLOSING/SUSPENDING YOUR ACCOUNT
You may close your Account at any time. We may require you to provide a closure
request in writing. Except as required by applicable law, we may close your
Account or suspend your credit privileges or any feature on your Account at any
time for any reason, including Account inactivity, without notice. If we close your
Account or suspend your credit privileges or any feature, we will not be liable
to you for any consequences that result. If you or we close your Account, you
and any authorized users must stop using your Account immediately and destroy
all cards, checks or other means to access your Account or return them to us
upon request. You will continue to be responsible for charges to your Account
according to the terms of this Agreement.

Foreign Transactions/Fees: A Foreign Transaction fee is a fee which will
be applied to transactions that take place outside of the United States, even if the
currency used is U.S. Dollars. If a transaction is in a foreign currency, Visa
International or MasterCard International will convert the transaction into U.S.
dollars by using their own currency conversion procedures. The exchange rate
will be determined in one of two ways. Either the rate will come from the range
of rates available in the wholesale currency markets for the processing date
(which may be different from the rate the card association receives) or a
government-mandated rate in effect on that date. The exchange rate used may
differ from the rate on the date of your transaction.

CREDIT INFORMATION
We may review your credit history by obtaining information from credit reporting
agencies and others. We may report information about you and your Account
to credit reporting agencies. If you request additional cards on your Account for
others, we may report Account information in your name as well as in the names
of those other people. If you think we have reported information to a credit
reporting agency that is not correct, you may contact the credit reporting agency
directly or you may write to us using the Bankcard Service address listed on
your billing statement. Please include your name, address, Account
number, telephone number and a brief description of the problem and a copy of
the credit reporting agency report if you have it. We will investigate the matter. If
our investigation shows that you are right, we will contact each credit reporting
agency to which we reported the information and will request they correct the
report. If we disagree with you after our investigation, we will tell you in writing or
by telephone.

We may charge a Foreign Transaction fee that is a percentage of the U.S. Dollar
amount of any foreign transaction as provided to us from Visa or MasterCard.
These Foreign Transaction fees are finance charges. The same process and
charges will apply again if any Foreign Transaction is reversed.
Late Fee: We may charge a late fee if we do not receive at least the
required Minimum Payment for any billing cycle by the date and time it is
due. If the amount of the late fee is based on a balance, we will use the total
Account balance at the end of the day that the late fee is charged to calculate
the fee. This date may be as early as the due date for the late payment.
Minimum Interest Charge: We may charge no less than the minimum
interest charge if any periodic interest charge is due for a billing cycle.
Overlimit Fee: For a Consumer Account, if you agree to allow us to charge
overlimit fees, we may charge such a fee to the extent allowed by law when
your Account goes overlimit. We may charge this fee even though your
balance is over the credit line because of a transaction we allowed. You have
the right to withdraw your consent to our charging the overlimit fee at any time.
If you do so, we will stop charging you the fee.

ACCOUNT REVIEW
At Account opening, your Account is placed in one of several tiers based on
your creditworthiness, and your ANNUAL PERCENTAGE RATE for
Purchases, Balance Transfers and Cash Advances will be the margin
established for your tier added to the Prime Rate. Periodically, but at least
once every six (6) months, we will review your Account history and
creditworthiness and determine whether your Account should be moved into
a higher or lower tier, thereby increasing or reducing, respectively, your
ANNUAL PERCENTAGE RATE for Purchases, Balance Transfers and Cash
Advances. To lessen rate volatility, this determination will not result in your
Account being moved into a higher tier unless the review indicates that your
Account should be moved more than one (1) tier higher. Correspondingly,
your ANNUAL PERCENTAGE RATE for Purchases, Balance Transfers and
Cash Advances will not be increased until your Account has been moved
more than one (1) tier higher. We will provide you with notice of any increases
or reductions in the ANNUAL PERCENTAGE RATES applicable to your
Account as required by law.

Return Check Fee: We may charge a return check fee if:
 we stop payment on a cash advance check or balance transfer check at your
request, or
 we refuse to pay a cash advance check or balance transfer check.
Return Payment Fee: We may charge a return payment fee if:
 your payment check or other type of payment is not honored,
 an automatic debit or other electronic payment is returned unpaid, or
 you did not sign your payment check or it cannot be processed.
Service Fees: We may charge fees if you request a copy of a billing
statement, sales draft or other record of your Account, or if you request two or
more cards or any special services (for example, obtaining cards on an
expedited basis). However, we will not charge fees for copies of documents
requested for a billing dispute. Service fees may change from time to time. We

3



Increases to your ANNUAL PERCENTAGE RATE following Account review
will apply only to transactions occurring on and after the date provided in the
notice to you of such increase. Reductions to your ANNUAL PERCENTAGE
RATE will apply both to current and future transactions and to existing
balances that are currently at a higher rate.

Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do we are not required to investigate any potential errors and you may have to
pay the amount in question.

Except upon the expiration of any introductory or promotional ANNUAL
PERCENTAGE RATES, we will not increase any of the ANNUAL
PERCENTAGE RATES applicable to your account during the first (12)
months after Account opening.

WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.

COMMUNICATIONS/CHANGE OFINFORMATION
We can provide cards, billing statements and other communications to you at
any mailing address or email address shown in our records. If you change your
contact information such as any mailing address, telephone number or email
address, you must notify us immediately in writing at the address shown on
your billing statement. Telephone numbers you provide include those you give
us and/or those we obtain from caller ID processes. We may obtain telephone
number, mailing address and e-mail address information from you or third
parties, and we may accept mailing address corrections from the United States
Postal Service.

While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent
on that amount.
 The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.
 While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:

If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.

If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.

If more than one person is responsible for this Account, we can provide billing
statements and communications to any of you. Notice to one of you will be
considered notice to all of you. You all will remain obligated on the Account. You
agree to pay any fee(s) or charge(s) for incoming communications from us,
and/or outgoing communications to us, without reimbursement from us.
You authorize us, or anyone acting on our behalf, to call or send a text message
to any number you provide or to any number where we reasonably believe we
can contact you. These include calls to mobile, cellular, or similar devices, and
calls using automatic telephone dialing systems and/or prerecorded
messages. We may also send an email to any address where we reasonably
believe we can contact you. Some of the legal purposes for calls and
messages include: suspected fraud or identity theft; obtaining information;
transactions on or servicing of your Account; collecting on your Account; and
providing you information about products and services.

If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you are questioning your
bill. We must tell you the name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the matter has been settled
between us.

TELEPHONE MONITORING ANDRECORDING
We and our agents may listen to and record your telephone calls with us. You
agree that we and our agents may do so, whether you or we initiate the telephone
call.
ENFORCING THIS AGREEMENT

If we do not follow all of the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD
PURCHASES

We can delay enforcing or not enforce any of our rights under this Agreement
without losing our right to enforce them in the future. If any of the terms of this
Agreement are found to be unenforceable, all other terms will remain in full force.

If you are dissatisfied with the goods or services that you have purchased with
your credit card and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit
card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing on a separate sheet at the Bankcard Service address
shown on your billing statement.
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you as
delinquent.

ASSIGNMENT
We may assign your Account, any amounts you owe us, or any of our rights and
obligations under this Agreement to a third party. The assignee will be entitled
to any of our rights that we assign to that person. You do not have the right to
assign your account.
GOVERNING LAW
The terms and enforcement of this agreement and your account shall be governed
and interpreted in accordance with federal law and, to the extent state law
applies, the law of North Carolina, without regard to conflict-of-law principles.
The law of North Carolina, where we and your account are located, will
apply no matter where you live or use the account.
FOR YOUR INFORMATION
Please call the Bankcard Service telephone number on your card or billing
statement if you have any questions about your Account or this Agreement.
YOUR BILLING RIGHTS: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on your statement, write to us on a separate sheet
at the Bankcard Service address shown on your billing statement.

To learn more about factors to consider when applying for
or using a credit card, visit the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

In your letter, give us the following information:

Account information: Your name and Account number.

Dollar amount: The dollar amount of the suspected error.

4

